U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                    August 15, 2006
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report –
the ninth since enactment of the legislation in October 2001 – summarizes the
OIG’s Section 1001-related activities from January 1, 2006, through June 30,
2006.

I. INTRODUCTION

      According to the Inspector General Act, the OIG is an independent entity
within the DOJ that reports to both the Attorney General and Congress. The
OIG’s mission is to investigate allegations of waste, fraud, and abuse in DOJ
programs and personnel and to promote economy and efficiency in DOJ
operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Attorneys’
Offices, and other DOJ components. 1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division is responsible for independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division provides an alternative
           mechanism to traditional audits and investigations to review
           Department programs and activities.

       •   Investigations Division is responsible for investigating allegations of
           bribery, fraud, abuse, civil rights violations, and violations of other
           criminal laws and administrative procedures that govern Department
           employees, contractors, and grantees.

       •   Oversight and Review Division blends the skills of attorneys,
           investigators, and program analysts to investigate or review high


       1  The OIG can investigate allegations of misconduct by any Department employee,
except for allegations of misconduct by attorneys (or investigators working under the direction
of Department attorneys) acting in their capacity to litigate, investigate, or provide legal advice.
See Pub. L. 107-273 § 308, 116 Stat. 1784 (Nov. 2, 2002).


Office of the Inspector General, U.S. Department of Justice                              Page 1
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division assists the OIG by providing
          services in the areas of planning, budget, finance, personnel, training,
          procurement, automated data processing, computer network
          communications, and general support.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 400 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 7 Audit Division regional offices located
throughout the country.

II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.




Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of civil rights
       and civil liberties by employees and officials of the Department of Justice.

      The OIG’s Special Operations Branch in its Investigations Division
manages the OIG’s investigative responsibilities outlined in Section 1001. 2 The
Special Agent in Charge who directs this unit is assisted by three Assistant
Special Agents in Charge (ASAC), one of whom assists on Section 1001 and
DEA matters, a second who assists on FBI matters, and a third who provides
support on ATF cases. In addition, four Investigative Specialists support the
unit and divide their time between Section 1001 and FBI/DEA/ATF
responsibilities.

      The Special Operations Branch receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. The complaints are
reviewed by an Investigative Specialist. After review, the complaint is entered
into an OIG database and a decision is made concerning its disposition. The
more serious civil rights and civil liberties allegations that relate to actions of
DOJ employees or DOJ contractors normally are assigned to an OIG
Investigations Division field office, where OIG special agents conduct
investigations of criminal violations and administrative misconduct. 3 Some
complaints are assigned to the OIG’s Oversight and Review Division for
investigation.

       Given the number of complaints received compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs (OIA) for appropriate handling. In certain referrals, the OIG requires the
components to report the results of their investigations to the OIG. In most
cases, the OIG notifies the complainant of the referral.

      Many complaints received by the OIG involve matters outside our
jurisdiction. The ones that identify a specific issue for investigation are
forwarded to the appropriate investigative entity. For example, complaints of
mistreatment by airport security staff are sent to the Department of Homeland
      2 This unit also is responsible for coordinating the OIG’s review of allegations of

misconduct by employees in the FBI, DEA, and ATF.

        3 The OIG can pursue an allegation either criminally or administratively. Many OIG

investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG is able to continue
the investigation and treat the matter as a case for potential administrative discipline. The
OIG’s ability to handle matters criminally or administratively helps to ensure that a matter can
be pursued administratively, even if a prosecutor declines to prosecute a matter criminally.


Office of the Inspector General, U.S. Department of Justice                          Page 3
Security (DHS) OIG. We also have forwarded complaints to the OIGs at the
Department of Veterans Affairs, Department of State, United States Postal
Service, Department of Defense, Department of the Treasury, Social Security
Administration, Department of Education, the Equal Employment Opportunity
Commission, and Administrative Office of the U.S. Courts. In addition, we
have referred complainants to several state and local Department of
Corrections offices that have jurisdiction over the subject of the complaints.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, the complaint is
discussed with the DOJ Civil Rights Division for possible prosecution. In some
cases, the Civil Rights Division accepts the case and requests additional
investigation by either the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution.

     A. Complaints Processed This Reporting Period

       From January 1, 2006, through June 30, 2006, the period covered by
this report, the OIG processed 803 complaints that were sent primarily to the
OIG’s Section 1001 e-mail or postal address. 4

       Of these complaints, we concluded that 647 did not fall within the OIG’s
jurisdiction or did not warrant further investigation. Slightly more than half of
the complaints – 336 of the 647 – involved allegations against agencies or
entities outside of the DOJ, including other federal agencies, local
governments, or private businesses. We referred those complaints to the
appropriate entity or advised complainants of the entity with jurisdiction over
their allegations. The remaining 311 complaints raised allegations that, on
their face, did not warrant an investigation. For example, complaints in this
category included frivolous allegations that FBI agents implanted a global
positioning system into a complainant’s body or controlled an individual’s sleep
cycle.

      The remaining 156 of the 803 complaints involved DOJ employees or
components and included allegations that required further review. We
determined that, of those complaints, 143 raised management issues not
related to our Section 1001 duties, and we referred them to DOJ components
for appropriate handling. Examples of complaints in this category included
inmates’ allegations about the general conditions at federal prisons or
complaints that the FBI did not initiate an investigation into a particular
complainant’s allegations.



     4 This number includes all complaints in which the complainant makes any mention of a
Section 1001-related civil rights or civil liberties violation, even if the allegation is not within
the OIG’s jurisdiction.


Office of the Inspector General, U.S. Department of Justice                             Page 4
      Five of the 156 complaints did not provide sufficient detail to make a
determination whether an abuse was alleged. We requested further
information but did not receive responses from these 5 complainants.

       The OIG identified 8 matters out of the 156 that we believed warranted
an investigation to determine if a Section 1001-related abuse occurred. We
referred 6 of the matters to the BOP for investigation and 2 to the FBI. We
discuss the substance of these eight complaints in the next section of this
report.

       None of the 803 complaints we processed during this reporting period
specifically alleged misconduct by DOJ employees relating to use of a provision
in the Patriot Act.

      The following is a synopsis of the new complaints processed during this
reporting period:

        Complaints processed:                      803

        Unrelated complaints:                      647

        Total complaints within OIG’s
         jurisdiction warranting review:           156

           •   Management issues:                  143

           •   OIG unsuccessfully sought
               further details:                       5

           •   Section 1001 matters
               warranting review:                     8

       B. Section 1001 Cases This Reporting Period

        1. New matters

   As mentioned previously, the OIG referred six Section 1001 complaints to
the BOP and two to the FBI for investigation during this reporting period. The
OIG requested that these components provide the OIG a copy of their
investigative reports upon completion of the investigations. The complaints
involve the following allegations:

   •    An Arab inmate alleged that a BOP employee called the inmate Osama
        bin Laden and suggested that he was going to post the inmate’s picture
        at the Post Office next to pictures of other wanted terrorists.



Office of the Inspector General, U.S. Department of Justice           Page 5
   •   An inmate allegedly overheard a BOP employee saying that he hated all
       Muslims and that this employee purposely wiped a Muslim inmate’s
       religious food tray with the hand he was using to serve pork to other
       inmates.

   •   A BOP inmate alleged that a correctional officer made comments to him
       that Muslims cannot be trusted, that Muslims in Iraq receive better
       treatment than they deserve, and that Islam is a terrorist religion.

   •   A Muslim inmate complained that a correctional officer questioned him
       about his religious attire, threatened to take his religious beads, and
       placed him in danger by discussing his nationality and alleged terrorist
       ties in the presence of other inmates. The inmate also alleged that on
       another occasion he was not permitted to attend Ramadan feast because
       he left the dining hall to smoke a cigarette.

   •   A Muslim inmate alleged that after his family members mistakenly left
       their personal identification cards at a BOP facility following a visit, BOP
       staff destroyed the identification cards. The Muslim inmate also alleged
       that he had been singled out for harassment and that his civil rights
       were being violated by the BOP not allowing him to meet with his
       attorney because he refused to submit to strip searches which he
       claimed violated his Muslim beliefs.

   •   A Muslim inmate complained that he received an incident report for
       participating in a hunger strike and was placed in a BOP facility’s Special
       Security Unit. The inmate alleged that he is not permitted to shave, cut
       his nails, use a comb, or receive a haircut. He also alleged that he did
       not receive his monthly telephone call or newspapers. Additionally, the
       inmate alleged that he does not have access to legal materials despite a
       court order stating that the BOP is to provide him with such materials so
       that he can adequately prepare for legal proceedings.

   •   A complaint received from a citizen claimed that FBI and Department of
       Homeland Security agents illegally searched the citizen’s home by using
       a search warrant secured with materially misleading information. In
       addition, the citizen alleged that federal agents may have improperly
       searched his family’s business. The complainant also alleged that the
       FBI inappropriately placed him on the “No Fly” list.

   •   A complaint alleged that members of the Arab Muslim community in a
       metropolitan area are being harassed, insulted, and victimized by local
       FBI agents.




Office of the Inspector General, U.S. Department of Justice               Page 6
      2. OIG investigations closed during this reporting period

   ● The OIG investigated allegations made by an Egyptian national who was
     arrested on September 12, 2001, in connection with the investigation of
     the September 11 terrorist attacks and who was cleared of any
     involvement in terrorist activities. He alleged that during his detention at
     a BOP facility he was subjected to a body cavity search in the presence of
     numerous people, including several females; placed alone in a cell under
     severe restrictions for more than 2 months; and had his ability to
     practice his religion undermined intentionally by the prison staff. The
     OIG also investigated allegations that BOP staff failed to properly
     maintain and safeguard videotapes of this inmate during his detention.

      The investigation revealed that several correctional officials violated BOP
      procedures in processing the male detainee into the facility by
      conducting a body cavity search in the vicinity of female staff. We also
      found that the correctional officers later tried to conceal their role in this
      incident. In addition, the investigation found evidence of mishandling of
      the original videotape of the inmate’s processing at the BOP facility. The
      OIG also found that poor management by BOP managers resulted in the
      improper collection, documentation, and safeguarding of the videotapes.

      In April 2004, the OIG presented this matter to the U.S. Attorney’s Office
      for prosecution, and it declined prosecution in December 2005. The OIG
      provided its report of investigation to the BOP for appropriate
      administrative action.

   ● The OIG investigated allegations raised by a Muslim inmate in a BOP
     correctional facility that as he was praying in the facility’s library a
     correctional officer ordered him to stop, made derogatory remarks about
     his religious beliefs, issued him an incident report, and placed him in
     solitary confinement. The investigation did not support the allegation
     that the inmate was physically or verbally abused. However, the OIG
     determined that the BOP does not have a policy designating where and
     when inmates can pray. Because staff discretion currently dictates
     where an inmate is authorized to pray, there appears to be a perception
     among some inmates of religious discrimination. The OIG provided its
     report of investigation to the BOP. In addition, we also recommended
     that the BOP establish a standard policy relating to the location and
     length of inmates’ religious observances for all denominations.

   ● The OIG investigated allegations made by a BOP inmate that correctional
     officers in a BOP facility humiliated and abused Muslim inmates because
     of the officers’ hatred of Muslims. The inmate alleged that correctional
     officers used excessive force on him, gave other inmates permission to
     assault him, and then covered up the incidents. The inmate also alleged


Office of the Inspector General, U.S. Department of Justice               Page 7
       that BOP staff improperly denied him showers, social visits, and the right
       to attend religious services. The inmate further alleged that other
       Muslim inmates were also abused and that he was retaliated against for
       cooperating with the OIG investigation. The investigation found
       insufficient evidence to substantiate any of the inmate’s allegations, and
       the Civil Rights Division declined prosecution. The OIG provided its
       report of investigation to the BOP.

   ● The OIG investigated a complaint from a former Muslim BOP correctional
     officer who alleged that staff members at a BOP facility referred to certain
     inmates as terrorists, displayed offensive posters depicting Muslim
     prisoners throughout the facility, referred to him as “Bin Laden,” and
     posted a picture of an eagle with its middle finger raised which read
     “Jihad this.” The investigation did not substantiate the allegations. The
     OIG provided its report of investigation to the BOP.

   •   The OIG directed the BOP to investigate allegations that a Muslim inmate
       was denied confidential attorney-client meetings, had his legal mail
       opened by staff, had his telephone calls monitored, and was subjected to
       verbal abuse. The complaint alleged that the BOP improperly designated
       the inmate as a terrorist and placed him under special administrative
       procedures, even though a federal judge determined that the inmate was
       not a national security risk. Allegedly, the warden refused to respond to
       inquiries regarding the basis for the administrative restrictions. The BOP
       Office of Internal Affairs investigation found insufficient evidence to
       support the allegations, except for one. The investigation found
       sufficient evidence to support the allegation that a BOP employee used
       profane language with the inmate during a verbal exchange. The BOP
       has initiated administrative proceedings regarding this substantiated
       allegation.

IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. Using this approach, the OIG has initiated
or continued several special reviews that relate to the OIG’s duties under
Section 1001. We also report on a DOJ OPR ongoing review during this
reporting period.

       A. Review of the FBI’s Use of National Security Letters and Ex Parte
          Orders for Business Records

      In December 2005, the OIG initiated a review examining the FBI’s use of
two authorities amended by the Patriot Act:


Office of the Inspector General, U.S. Department of Justice            Page 8
      (1) the FBI’s authority to issue National Security Letters to obtain certain
categories of records from third parties, including telephone toll and
transactional records, financial records, and consumer reports; and

      (2) the FBI’s authority to obtain business records from third parties by
applying for ex parte orders issued by the Foreign Intelligence Surveillance
Court pursuant to Section 215 of the Patriot Act.

       This review is required by the USA Patriot Improvement and
Reauthorization Act of 2005 (Public Law 109-177). This law directs the OIG to
review the extent to which the FBI has used these authorities; any
bureaucratic impediments to their use; how effective these authorities have
been as investigative tools and in generating intelligence products; how the FBI
collects, retains, analyzes, and disseminates information derived from these
authorities; whether and how often the FBI provided information derived from
these authorities to law enforcement entities for use in criminal proceedings;
and whether there has been any improper or illegal use of these authorities.
See Sections 106A and 119 of Public Law 109-177.

       In this review, the OIG is examining the FBI investigative files,
interviewing FBI and other DOJ officials, visiting FBI field offices, and analyzing
the FBI’s use of these authorities in the last several years. According to the
law, the OIG is required to report the results of its review by March 2007.

      B. Recommendations in the September 11 Detainee Report

      In June 2003, the OIG issued a report entitled, “The September 11
Detainees: A Review of the Treatment of Aliens Held on Immigration Charges
in Connection with the Investigation of the September 11 Attacks.” In that
report, the OIG made 21 recommendations related to issues under the
jurisdiction of the FBI, the BOP, and leadership offices at the DOJ, as well as
immigration issues now under the jurisdiction of the DHS. As of this reporting
period, 20 of the recommendations have been resolved. The one open
recommendation calls for the Department and the DHS to enter into a
memorandum of understanding (MOU) to formalize policies, responsibilities,
and procedures for managing a national emergency that involves alien
detainees. After the OIG’s issuance of the report, the DOJ and DHS agreed
with the recommendation and began negotiating over language in the MOU to
implement the recommendation. However, more than two years after the OIG
made the recommendation, the MOU still has not been completed. As of July
2006, we were informed that discussions between the Department and the
DHS over the language of this MOU remain ongoing.




Office of the Inspector General, U.S. Department of Justice              Page 9
      C. The FBI’s Interviews of Potential Protesters in
         Advance of the 2004 National Political Conventions

      In April 2006, the OIG issued a report on the FBI’s use of its investigative
authorities to conduct interviews of potential protesters in advance of the 2004
national political conventions. News articles in 2004 stated that the FBI had
questioned political demonstrators across the United States in connection with
threatened violent and disruptive protests at the Republican and Democratic
National Conventions held in the summer of 2004. The initial article stated
that dozens of people had been interviewed in at least six states, including anti-
war demonstrators and political demonstrators and their friends and family
members. The FBI issued a statement responding to these allegations which
stated in part: “The FBI is not monitoring groups, or interviewing individuals,
unless we receive intelligence that such individuals or groups may be planning
violent and disruptive criminal activity or have knowledge of such activity.”

       Following publication of the news articles, several members of Congress
requested that the OIG initiate an investigation into “possible violations of First
Amendment free speech and assembly rights by the Justice Department in
connection with their investigations of possible protests at the Democratic and
Republican political conventions in Boston and New York and other venues.”
In response, the OIG initiated an examination of the FBI’s use of its
investigative authorities to conduct interviews in advance of the national
political conventions and the FBI’s monitoring of protest groups in connection
with the national political events. During the course of its review, the OIG
interviewed more than two dozen FBI headquarters and field personnel and
examined approximately 10,000 pages of documents.

       The OIG’s review did not substantiate the allegations that the FBI
improperly targeted protesters for interviews in an effort to chill the exercise of
their First Amendment rights at the 2004 national political conventions. The
OIG concluded that the FBI’s interviews of potential convention protesters and
other related interviews, together with its related investigative activities, were
conducted for legitimate law enforcement purposes and were based upon a
variety of information associated with possible bomb threats and other violent
criminal activities.

       The OIG found that nearly all of the FBI’s protester-related investigative
activity was devoted to addressing 17 distinct threats to the conventions falling
within the FBI’s domestic terrorism program. The report concluded that the
FBI addressed each threat in accordance with the Attorney General’s
Guidelines on General Crimes, Racketeering Enterprise and Terrorism
Enterprise Investigations (General Crimes Guidelines). In addition, the review
identified seven terrorism enterprise investigations not initiated in connection
with the conventions that generated convention-related criminal intelligence.


Office of the Inspector General, U.S. Department of Justice               Page 10
The OIG concluded that the investigative techniques used to obtain this
intelligence were a logical outgrowth of the underlying investigations and that
the investigative activity was undertaken in a manner consistent with the
requirements of the General Crimes Guidelines.

       With respect to the protester-related interviews, the OIG’s investigation
revealed that the FBI identified 74 persons and the residents of 3 addresses for
contact who satisfied the following criteria: 1) they were likely convention
demonstrators or, through affiliation with one or more organizations or
persons, were individuals with access to information about potential protest
activity at the conventions; and 2) they were persons whom the FBI reasonably
believed had, or might have, knowledge about planned criminal acts at the
conventions. In addition, the FBI contacted and interviewed eight individuals
in an attempt to locate persons who satisfied the two criteria above. Of the
individuals targeted for contact, the FBI was successful in locating 60 persons
in 9 states, 41 of whom consented to interviews and provided the FBI with
information. The OIG concluded that the FBI’s contacts with these individuals
were appropriate and occurred in response to the 17 threats of criminal
activity.

      D.   Review of the FBI’s Investigation of Certain Domestic Advocacy
           Groups

       In June 2006, the OIG initiated a review to examine allegations that the
FBI targeted domestic advocacy groups for scrutiny based solely upon their
exercise of rights guaranteed under the First Amendment of the United States
Constitution. The review will examine allegations regarding the FBI’s
investigation, and the predication for any such investigation, of certain
domestic advocacy groups including the Thomas Merton Center, Greenpeace,
and People for the Ethical Treatment of Animals (PETA). Our review of the
domestic advocacy groups will be similar in focus to the OIG’s review of the
FBI’s investigation of potential protesters at the 2004 Democratic and
Republican National Conventions.

      E. Review of FBI Conduct Relating to Detainees in Military
         Facilities in Guantanamo Bay and Iraq

      The OIG is reviewing FBI employees’ observations and actions regarding
alleged abuse of detainees at Guantanamo Bay, Abu Ghraib prison, and other
venues controlled by the U.S. military. The OIG is examining whether FBI
employees participated in any incident of detainee abuse, whether FBI
employees witnessed incidents of abuse, whether FBI employees reported any
abuse, and how those reports were handled by the FBI. In addition, the OIG is
assessing whether the FBI inappropriately retaliated against or took any other
inappropriate action against any FBI employee who reported any incident of
abuse.


Office of the Inspector General, U.S. Department of Justice            Page 11
      As part of this ongoing review, the OIG has interviewed detainees, FBI
employees, and military personnel at Guantanamo. In addition, the OIG has
administered a detailed questionnaire to approximately 1,000 FBI employees
who served assignments at Guantanamo Bay, in Iraq, and Afghanistan. The
questionnaire requested information on what the FBI employees observed,
whether they reported observations of concern, and how those reports were
handled. The OIG has received over 900 responses to its questionnaire. The
OIG investigative team is in the process of drafting the report summarizing the
results of the investigation.

       F. FBI’s Reporting of Possible Intelligence Violations to the
          President’s Intelligence Oversight Board

       In the OIG’s March 2006 Section 1001 report, we described our
examination of the FBI’s process for reporting possible violations involving
intelligence activities to the Intelligence Oversight Board (IOB). The
examination focused on fiscal years 2004 and 2005. As set forth in the last
report, the FBI made 108 reports of possible violations to the IOB for fiscal
years 2004 and 2005.

      The FBI’s reports to the IOB describe incidents that generally fell into one
or more of the following three categories: (1) improper utilization of authorities
under FISA; (2) failure to adhere to Attorney General Guidelines or
implementing FBI policy; and (3) improper utilization of authorities involving
National Security Letters. The matters reported to the IOB encompassed a
broad range of intelligence activities used by the FBI, although most of the
possible violations involved electronic surveillance.

      The OIG continues to monitor the FBI’s handling of IOB matters. We
intend to update our review in the next Section 1001 report.

      G. Material Witness Warrants

       As we described in our last report, DOJ OPR has opened an inquiry
regarding the DOJ’s use of material witness warrants. This review was opened
after the American Civil Liberties Union and Human Rights Watch issued a
report in June 2005 entitled “Witness to Abuse: Human Rights Abuses under
the Material Witness Law since September 11.” The report reviewed a number
of material witness cases and alleged that the material witness law had been
misused to hold suspects in cases where there was insufficient evidence to
charge them criminally; a number of witnesses were not brought promptly
before a judge, were denied counsel, or were not provided with the reason for
their arrest; the government had improperly alleged that every witness was a
flight risk; the government had conducted abusive interrogations; and many of
the judicial proceedings were improperly conducted in secret.


Office of the Inspector General, U.S. Department of Justice             Page 12
      Based on the allegations in the report, DOJ OPR opened an inquiry
regarding the allegations concerning 13 individuals, and one group of 8
individuals detained together. Some of these matters involved allegations that
individuals were held for long periods of time on material witness warrants
with no effort to obtain their testimony. Several of these individuals were later
charged criminally or deported based on immigration violations. Other matters
involved the alleged failure to bring individuals before a court within the
required time frame and failure to inform witnesses of the basis for their
arrest. According to DOJ OPR, its inquiry remains ongoing.

V. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to:

      Submit to the Committee on the Judiciary of the House of Representatives
      and the Committee on the Judiciary of the Senate on a semi-annual basis
      a report…including a description of the use of funds appropriations used to
      carry out this subsection.

       During this reporting period, the OIG spent approximately $1,388,726 in
personnel costs, $51,485 in travel costs (for investigators to conduct
interviews), and $1,552 in miscellaneous costs, for a total of $1,441,726 to
implement its responsibilities under Section 1001. The total personnel and
travel costs reflect the time and funds spent by OIG special agents, inspectors,
and attorneys who have worked directly on investigating Section 1001-related
complaints, conducting special reviews, and implementing the OIG’s
responsibilities under Section 1001.




Office of the Inspector General, U.S. Department of Justice            Page 13
